Fg
I

C@OCKLE

Legal Briefs E-Mail Address:
8 contact@cocklelegalbriefs.com

2311 Douglas Street
Omaha, Nebraska 68102-1214

Est. 1923
1-800-225-6964 Web Site
(402) 342-2831 www.cocklelegalbriefs.com

Fax: (402) 342-4850 No. 19-1324

CENTER FOR IMMIGRATION STUDIES,
Petitioner,

v.
RICHARD COHEN AND HEIDI BEIRICH,
Respondents.

AFFIDAVIT OF SERVICE

I, Andrew Cockle, of lawful age, being duly sworn, upon my oath state that I did, on the 10th day of July, 2020, send out
from Omaha, NE | package(s) containing 3 copies of the PETITIONER CENTER FOR IMMIGRATION STUDIES’ REPLY
BRIEF IN SUPPORT OF ITS PETITION FOR CERTIORARI in the above entitled case. All parties required to be served
have been served by third-party commercial carrier for delivery within 3 calendar days. Packages were plainly addressed to
the following:

SEE ATTACHED

To be filed for:
HOWARD W. FOSTER
FOSTER PC
150 N. Wacker Drive, Suite 2150
Chicago, IL 60606
(312) 726-1600
HFoster@FosterPC.com
Counsel for Petitioner

Subscribed and sworn to before me this 1 0th day of July, 2020.
I am duly authorized under the laws of the State of Nebraska to administer oaths.

GENERAL NOTARY-State of Nebraska d / Xv Chk
con RENEE: 20088 200s ‘.
My Comm. Exp. mber 5,
Notary Public Affiant 39982

 

 
SERVICE LIST

Chad Russell Bowman

Ballard Spahr LLP

1909 K Street, NW

12th Floor

Washington, DC 20006-1157
Firm: 202-661-2200
bowmanchad@ballardspahr.com

Counsel of Record for Respondents Richard Cohen and Heidi Beirich
